<html>
<title> - HONG KONG: A BROKEN PROMISE?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                      HONG KONG: A BROKEN PROMISE?

=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2014

                               __________

                           Serial No. 113-226

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                 U.S. GOVERNMENT PRINTING OFFICE 

91-662PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, Massachusetts
SCOTT PERRY, Pennsylvania            AMI BERA, California    
STEVE STOCKMAN, Texas                ALAN S. LOWENTHAL, California
RON DeSANTIS, Florida                GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
SEAN DUFFY, Wisconsin
CURT CLAWSON, Florida
     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
CURT CLAWSON, Florida                WILLIAM KEATING, Massachusetts
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Dean Cheng, senior research fellow, Asian Studies Center, The 
  Davis Institute for National Security and Foreign Policy, The 
  Heritage Foundation............................................     9
Sophie Richardson, Ph.D., China director, Human Rights Watch.....    24
Ms. Kelley Currie, senior fellow, Project 2049 Institute.........    34

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Dean Cheng: Prepared statement...............................    12
Sophie Richardson, Ph.D.: Prepared statement.....................    26
Ms. Kelley Currie: Prepared statement............................    37

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    62

 
                      HONG KONG: A BROKEN PROMISE?

                              ----------                              


                       TUESDAY, DECEMBER 2, 2014

                       House of Representatives,

                 Subcommittee on Asia and the Pacific,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. Good afternoon. The committee will come to 
order. And before we begin this afternoon, I would like to take 
a moment just to say a few words about my good friend, the 
ranking member, Eni Faleomavaega. As this is likely to be the 
last hearing, we think, of the Asia-Pacific Subcommittee in 
this Congress, this will be the last time that I will have the 
honor to sit on this dais next to my good friend Eni, from 
American Samoa. And I can tell you I am going to miss that 
experience, opportunity, and real honor it has been. He is 
truly one of the class acts of the United States Congress.
    I have served on this committee for 18 years now. And that 
pales in comparison, I think, to how long Eni has been on the 
committee. But I have gotten to know him quite well over the 
years and have gotten to know him even better after 2001. 
During that year, Eni and I both served as the representatives 
from the Congress to the U.N. We went to the U.N. headquarters 
a number of times and worked on various issues right after that 
year. It was right after September 11, so it was a very active 
time when it comes to international affairs.
    And our friendship has grown over the years as we have 
traveled on a number of occasions to different parts of the 
world, mainly in Asia. This last year, we were in South Korea, 
Japan, and Taiwan, where we met with heads of state, including 
in a prison with former President Chen Shui-bian of Taiwan. I 
think we both agree he has been in prison long enough, and for 
whatever he did he certainly served a penalty for that. We 
certainly think that justice has been served, and he should get 
humanitarian parole. I didn't want to get sidetracked too much 
on that, but I feel very strongly about that particular issue, 
and I know Eni does as well.
    Because world leaders have dealt with him before, they have 
seen him in action, and they know the humanness of this person, 
you find out during these trips the high regard that Eni is 
held in the eyes of world leaders all over this globe. He 
really does care and he cares about the people of American 
Samoa. But he cares about American Samoa just as much as he 
cares about the whole world because he is truly a man of the 
world and has made this world a better place.
    As I think most people know, he served our country 
honorably, wearing the uniform of our country in Vietnam. A lot 
of us talk about these things, but Eni has experienced them 
firsthand. We don't always agree on everything. I am a little 
bit on the right, and he is a little bit on the left. Probably 
people would say I am way out on the right and he is maybe a 
little further to the left than a little out on the left. But 
that being the fact, this is a time when bipartisanship really 
has worked in many ways.
    And so I want to thank him for his friendship, his 
leadership on this committee, and his leadership in Congress. 
He will truly be missed and truly not forgotten. He is one of 
the few Members that has a photo of himself on the wall with 
Elvis Presley, and as I think somebody mentioned, was in a 
movie with Elvis Presley. I mean, that is pretty impressive 
stuff.
    But, again, in all seriousness, we appreciate your service 
to our country and to this committee, Eni. And I also want to 
say that in his absence when he had health issues, Ami Bera 
stepped up and really did a very commendable job coheading the 
committee with me. That is really what happens around here, is 
we work together on these things in the Foreign Affairs 
Committee.
    Before I get into my opening statement, I would welcome any 
other members that might, should the spirit move them, like to 
say something.
    Mr. Bera.
    Mr. Bera. I would just echo the statements. As a freshman 
Member of Congress, Eni has been a great role model, and helped 
me navigate the Foreign Affairs Committee.
    And you are not disappearing. You will still be around as a 
resource, certainly, to this freshman Member of Congress, and 
soon to be sophomore Member. So thank you for everything you 
have done, and I do look forward to continuing to work with 
you.
    Mr. Chabot. Would the gentleman from Pennsylvania like to 
say something.
    Mr. Perry. Sure. Also appreciate and want to echo the 
chairman's remarks. We have not served together long and only 
on few occasions in this subcommittee, mostly in the course of 
the full committee. But I have appreciated your perspective. 
And whether we agree or disagree, there is no doubt that you 
are a strong advocate for your constituency at home, and that 
is what they expect. And so I applaud you for standing firm for 
what you believe and for your constituents. We hope that we can 
all serve with the same measure. So I wish you God's speed.
    Mr. Chabot. Thank you.
    The gentleman from California, who has served for quite 
some time not only with myself, but with the gentleman from 
American Samoa.
    Mr. Sherman. Echo your comments, Mr. Chairman. I have been 
on the full committee with Eni for 18 years. I have learned 
more about American Samoa than I ever thought possible and more 
about the issues of the Pacific and of Asia. And I would say he 
is going to be missed, but hopefully he will still be here. 
That will be the one thing that prevents him from being missed. 
So, we look forward to gaining Mr. Faleomavaega's counsel and 
input on foreign policy as the years go forward.
    Mr. Chabot. Thank you very much.
    And if the gentleman would like to say anything, he is 
welcome to now or he can wait till the opening statement.
    Okay. Thank you very much. I will now proceed with my 
statement.
    For 2 months, the people of Hong Kong have come together to 
protest Beijing's decision to deny the city's 7.2 million 
people the right to directly elect their Chief Executive, 
putting the future of democracy in Hong Kong at great risk. The 
demise of the ``One Country, Two System'' framework of 
governance is a stark reminder that Beijing's promises can be 
revoked at the drop of a hat.
    What we see in Hong Kong today, however, is not an isolated 
event. It is the latest chapter in the story of an increasingly 
aggressive China that began 2 years ago when President Xi 
Jinping assumed power. Under Xi's leadership, a new brand of 
Chinese nationalism has emerged, and it is one where China 
takes the center stage in international affairs by asserting 
its hegemony in the region and directly challenging the United 
States.
    Domestically, the stifling of dissent has risen to new 
levels extending even to the economic front where the 
government's antimonopoly laws are targeting American 
companies. Beijing is also working diligently to silence 
political opposition by suppressing social media, imposing 
strict Internet and instant messaging regulations, and banning 
academic research and teaching on topics such as civil society, 
universal values, citizens' rights, freedom of the press, 
independence of the judiciary, and capitalism.
    In 2013, China unilaterally imposed an air defense 
identification zone over the East China Sea, imposing 
unnecessary risk to international civilian air traffic. Less 
than 1 year later, China turned a tin ear to its neighbors 
concerns by placing a drilling platform in disputed waters off 
Vietnam. Around the same time, Chinese naval vessels and its 
air force began to behave aggressively attempting to intimidate 
U.S. naval vessels and aircraft operating in international 
waters and airspace.
    Many consider current U.S.-China relations to have reached 
the lowest point in a decade. And, amazingly, there is no 
senior administration official that leads the China portfolio. 
So it comes as no surprise that the Obama administration's 
response to Hong Kong's cry for help did so little to instill 
confidence with the people of Hong Kong.
    The U.S. must never stand idle when democracy is being 
challenged. When the glow of press conferences has faded, we 
must remember that what is happening in Hong Kong is not an 
isolated event. President Xi is dismantling the ``One Country, 
Two System'' governance arrangement--a strategy orchestrated by 
Beijing that certainly has put our friend and ally Taiwan on 
notice that any accommodation or agreement may be revoked at 
moment's notice and is not worth the paper it is written on.
    If the Obama administration is so serious about its pivot 
to Asia, how can it go so long without offering credible 
support to the people of Hong Kong and their democratic 
aspirations, which are in fact written and promised in law? 
Saying that the U.S. does not take sides in the political 
development of Hong Kong and doesn't support any particular 
individuals or groups involved, as the U.S. Consulate in Hong 
Kong stated, is not acceptable or correct for that matter. This 
response is a capitulation to China and abandonment of our 
promises to Hong Kong that U.S. support of democratization in 
Hong Kong is a fundamental principle of U.S. foreign policy, as 
are the human rights of the people of Hong Kong.
    While hundreds and thousands of protesters have stood their 
ground against attacks by thuggish China Communist Party 
supporters and waves of tear gas and pepper spray from police, 
the Obama administration has stood on the sidelines. Are the 
wishes of the Hong Kong people not clear enough? And after a 
period of calm, protests are once again escalating, and nearly 
200 people have been arrested, including many of the Umbrella 
Movement's leaders. Now is not the time to remain silent and 
reticent in support for Hong Kong's democratic future. The 
U.S.-Hong Kong Policy Act of 1992 states that the U.S. should 
play an active role in maintaining Hong Kong's confidence and 
prosperity. These aspirations are progressively diminishing as 
a result of China's growing control over Hong Kong's Government 
and the civil rights of its people.
    We are at a pivotal moment for democracy in Hong Kong. No 
matter how long China tries to suppress basic human rights, ban 
the pursuit of democratic ideals, and quash civil society, we 
must not let Beijing succeed in destroying the values the 
people in Hong Kong are fighting so hard to keep. The Obama 
administration needs to more vocally support the pro-democratic 
aspirations of the Hong Kong people. We must not let Beijing's 
accusations of foreign influence bully us into silence over 
upholding human rights and supporting the right of the Hong 
Kong people to choose their own political future.
    The U.S.-Hong Kong Policy Act stipulates differential 
treatment of Hong Kong only as long as it is considered 
sufficiently autonomous from China. Considering Beijing's 
orchestration of the Hong Kong Government's responses to the 
crises, and dictation over who can and cannot enter or leave 
Hong Kong, it may be time to reassess Hong Kong's autonomous 
status, and those benefits that come with that status.
    I thank our witnesses for being here this afternoon. We 
look forward to hearing your thoughts on how the situation in 
Hong Kong may evolve in the coming weeks and months. I now 
recognize our ranking member, Mr. Faleomavaega, for his opening 
remarks.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I thank you for 
holding this timely hearing in light of the serious protests in 
response to conditions set by China for the 2017 elections for 
Hong Kong's Chief Executive.
    For years, Mr. Chairman, I have been critical of our U.S. 
foreign policy toward the Asia-Pacific region. While not taking 
anything less of importance as far as Europe and the Middle 
East is concerned, I have always said that we are not paying 
enough attention to the Asia-Pacific region, especially when 
two-thirds of the world's population is in the Asia-Pacific 
region. You can talk about the armies, you can talk about the 
economics, and I think it is well said.
    As President Ma states, Hong Kong is an extremely important 
global financial center, and any political turmoil that occurs 
there will impact not only Asia but the entire world. President 
Ma points out that Taiwan has had universal suffrage for some 
time, and believes that if a system of universal suffrage can 
be realized in Hong Kong, both Hong Kong as well as Mainland 
China would benefit.
    I would add, Mr. Chairman, that the Asia-Pacific region and 
the United States would also benefit, as would the entire 
world. I ask to include President Ma's statement in the record 
for the historical purposes.
    Mr. Chabot. Without objection, so ordered.
    Mr. Faleomavaega. As this will be my last subcommittee 
hearing, I want the publicly express my appreciation for you, 
Mr. Chairman. I have served as both chairman and ranking member 
of this subcommittee, and I have served with many others over 
the years. One of my most cherished honors has been serving 
with you. You, as a member of the committee, Chairman Chabot, 
are a loyal and principled man who serves your constituents in 
the Asia-Pacific region with distinction and honor. No matter 
where I go from here, I will always take your friendship with 
me. I am going to miss you.
    I am also going to miss each and every member of this 
subcommittee who served with us, including my dear friend Dana 
Rohrabacher, who is my buddy, truly my buddy. I especially 
thank Mr. Bera for the gracious support he and his staff 
provided by filling in for me during my time of recovery.
    I also want to pay special tribute to Kevin and Priscilla. 
You chose well when you chose those as staff director and 
professional staffs, respectively. I am deeply appreciative of 
the support they have given to you and me and to my staff as 
well. Their knowledge and expertise in the Asia-Pacific region 
has influenced many, and I will remember them both for their 
extraordinary goodness, and I know that my staff feels the same 
way toward them.
    So, Mr. Chairman, to you, to our subcommittee members and 
staff, I extend my highest and kindest regards. May God be with 
each of you till we meet again. Soifua.
    Mr. Chabot. Thank you very much. Thank you very much.
    If the gentleman from Pennsylvania wouldn't mind if we go 
out of order and have Mr. Rohrabacher speak now. Gentleman from 
California is recognized.
    Mr. Rohrabacher. Thank you very much. And this is, of 
course, a very symbolic hearing today in that we are discussing 
how important the Pacific and the Asia and Pacific Rim is to 
the United States of America, and how the people there on that 
part of the world need to know that we are paying attention 
that we are on the side of those people who are struggling to 
make the word a better place. And here it is, the last day, 
Eni's last day, a man who has been working all these years.
    And how many years altogether, Eni?
    Mr. Faleomavaega. Too many.
    Mr. Rohrabacher. Too many. Well, I think I was 24 when we 
were running overseas in all kind of wild places in the world.
    But Eni has dedicated his life, from the time he was a 
young soldier in Vietnam till this very moment, toward making 
this a better world. And while we have had a few disagreements, 
we have also shared the great common value of a commitment to 
making it a better and freer world, and toward bringing the 
people of the Pacific and of Asia into that type of 
relationship with the people of the United States.
    So, Eni, God bless you and Godspeed.
    Just a few thoughts about this hearing.
    I think one of the greatest mistakes that was ever made by 
any President of the United States in my lifetime was made by a 
Republican President, Herbert Walker Bush. After Ronald Reagan 
cleared the path toward a great expansion of democracy, and 
China at that time seemed to be heading toward democracy, 
Herbert Walker Bush betrayed the people in Tiananmen Square, 
betrayed the democratic movement, and let them be slaughtered. 
We never did we have the retaliation against this evil regime 
in Beijing that we should have had after Tiananmen Square. We 
would have had a far better world today had the democracy 
movement won at that time. Herbert Walker Bush was to blame for 
that loss. Instead, we have a government that is the world's 
worst human rights abuser.
    But today, we send a message to the young pro-democracy 
activists now in the streets of Hong Kong: You are not alone. 
We think of you. We are with you. All people have the right to 
be free. But it has to be earned. And today we recognize the 
brave young men and women in the streets of Hong Kong who are 
earning their freedom, earning their right to democracy, and to 
control their own destiny through the ballot box.
    So today we say to the young people in Hong Kong, we are 
with you, don't fear, and we will try our best not to make the 
mistake that we made at Tiananmen Square. This time we stand 
strong for our values. And even though Eni won't be with us to 
make sure that we are keeping that promise, I can assure you 
that he will be behind us, giving us telephone calls, and thus 
we meet our responsibility.
    So thank you very much, Eni.
    And thank you, Mr. Chairman, for this hearing.
    Mr. Chabot. Thank you very much. Gentleman's time has 
expired.
    Gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. I will just maybe some brief comments.
    When we look at Hong Kong, when we look at the protests 
that are taking place, when we look at the promise of the 1997 
treaty, I am interested in hearing the witnesses' testimony and 
getting to the bottom of how this transition is taking place 
and getting to a point where we can get to one person, one vote 
and you have a true democracy. Because ultimately at the 
foundation of freedom and democracy is the ability to express 
your voice through your votes and pick your own leadership.
    So I am curious to see how that transition is going, where 
we are today, and how we get to where we want to be in 2017. So 
I am looking forward to that testimony. Thank you.
    Mr. Chabot. Thank you very much.
    The gentleman from Arizona is recognized.
    Mr. Salmon. Thank you.
    First and foremost, I want to echo the sentiments that have 
been expressed toward Mr. Faleomavaega. This is my second 
opportunity serving with him, once was in the 1990s and now 
again. There has never been a more tireless supporter of the 
indigent peoples of various nations than Mr. Faleomavaega.
    And we are going to really miss you. You are a wonderful 
man and your heart is a good one and you have always strived to 
do the right thing, not the partisan thing, and I appreciate 
that.
    As far as Hong Kong is concerned, I was there for the 
handover ceremony of Hong Kong from Great Britain to China and 
met with Martin Lee and other folks that were very, very 
dubious about what would happen with this ``One Country, Two 
Systems'' that China was proposing. And I am sad to say that 
some of those fears that Mr. Lee expressed at that time have 
been realized. That Beijing, who has said that they were going 
to let Hong Kong be autonomous, then puts down all their rules 
and regulations about how the vetting process is going to be 
done by Beijing to decide who gets to run and who doesn't.
    I congratulate these young people for standing up for 
freedom and standing up for their beliefs. It is not always 
easy. And I want to echo the sentiments of Mr. Rohrabacher. We 
need to be strong in our response in defending freedom anywhere 
across the globe. And if these young people run into harm's 
way, let our voice and our actions be very, very clear that we 
are on the side of freedom and democracy.
    And I yield back the balance of my time.
    Mr. Chabot. Thank you very much. Gentlemen's time has 
expired.
    The gentleman from California is recognized.
    Mr. Sherman. Mr. Chairman, it was good to be with you, Dana 
Rohrabacher, and of course the chairman of the committee back 
in February in Hong Kong where we had a chance to meet those 
who have really devoted their lives to trying to give democracy 
to the Hong Kong people.
    We had a chance to meet with Martin Lee, just as the 
gentleman from Arizona met with him at the time that this all 
began, when we were promised ``One Country, Two Systems.'' But 
when it came to political rights and freedoms, it looks like it 
is one country, one system. One person, one vote, and one 
committee that decides who you are allowed to vote for.
    I think that we should speak out in favor of the Hong Kong 
people. But let us be frank. We can't take military action. We 
are unlikely to take trade action. And oratorical support is 
the most we can provide or are likely to provide. But as we 
negotiate so many transactions with China, we should remember 
that the promise to millions of its own citizens has been 
broken and we should be very careful in transacting business 
with a country that has behaved like this.
    Finally, if China thinks that Taiwan would voluntarily 
reunite with the mainland, I don't think the slogan they are 
going to use is ``One Country, Two Systems.'' I think that 
slogan has been tarnished.
    Mr. Chabot. Thank you very much. Gentleman's time has 
expired.
    The gentleman from Pennsylvania, Mr. Perry, is recognized.
    Mr. Perry. Thanks, Mr. Chairman. I just want to say I 
appreciate this hearing on this very timely and important 
subject. I look forward to the testimony of the presenters here 
today. I think today is a good time to think about our pivot or 
our alleged pivot as a Nation to Asia and what that means. 
Today I also think about the cost of freedom, how it must be 
earned and won and how it must be renewed. Today I also want to 
reiterate how fragile democracy is, and the freedom that we 
experience, that we love and cherish today. By watching the 
events in Hong Kong, especially, you can tell that it won't be 
taken away in one fell swoop, but by increments. We can learn a 
lot from that in our own society today.
    So I am very much looking forward to the answers and the 
questions regarding this.
    And with that, Mr. Chairman, I yield back.
    Mr. Chabot. Thank you. The gentleman yields back.
    Are there any other members that seek to make an opening 
statement? If not, we will go ahead and introduce our panel 
here this afternoon.
    We will begin with Dean Cheng, who serves as a senior 
research fellow in the Asian Studies Center at the Davis 
Institute for National Security and Foreign Policy at the 
Heritage Foundation. His portfolio includes Chinese political 
and security affairs with an emphasis on China's military 
policy and U.S.-China policy. He previously worked as a senior 
analyst for Science Applications International Corps, where he 
handled defense and homeland security issues. He also worked 
with the China Studies Division of the Center for Naval 
Analysis. Before that, Mr. Cheng served as a China defense 
analyst for the Office of Technology Assessment's International 
Security and Space Program, where he studied China's defense-
industrial complex. Mr. Cheng has provided analysis for a 
number of news media sources and is a contributor to the BBC 
World Service, National Public Radio, Washington Post, and Time 
magazine, amongst others. Mr. Cheng is a regular speaker on 
China defense issues and U.S.-China policy. Mr. Cheng holds a 
bachelor's degree in political science from Princeton 
University and studied for a doctorate at the Massachusetts 
Institute of Technology.
    We welcome you here this afternoon.
    Our next witness will be Sophie Richardson, who serves as 
the China director at Human Rights Watch. Dr. Richardson is the 
author of numerous articles on domestic Chinese political 
reform, democratization, and human rights in Asia. She has 
previously testified before the European Parliament and both 
the U.S. House of Representatives and the U.S. Senate. She 
provides regular commentary to news media outlets. In 2009, Dr. 
Richardson, published the book ``China, Cambodia, and the Five 
Principles of Peaceful Coexistence.'' Dr. Richardson has 
received degrees from the University of Virginia, Johns Hopkins 
School of Advanced International Studies, Hopkins-Nanjing 
Program, and Oberlin College. And we welcome you this 
afternoon, Doctor.
    Lastly, our final witness is Kelley Currie, who is a senior 
fellow with the Project 2049 Institute. Her portfolio includes 
democracy, human rights, and the rule of law in the Asia-
Pacific region. Prior to joining Project 2049, Ms. Currie 
served as an Asia policy advisor to the Under Secretary of 
State for Democracy and Global Affairs and Special Coordinator 
for Tibetan Issues, Paula Dobriansky. She has also served as 
senior advisor to the International Committee of the Red Cross, 
director of Government Relations for the International Campaign 
for Tibet, and deputy director for Asia at International 
Republican Institute. Ms. Currie was the foreign policy advisor 
to Congressman John Porter and concurrently served as the 
majority staff director of the Congressional Human Rights 
Caucus. Ms. Currie received a JD from Georgetown University Law 
Center and an undergraduate degree in political science from 
the University of Georgia School of Public and International 
Affairs. She has appeared as an expert commentator on CNN and 
the BBC and has written on Asia policy issues for national and 
international publications.
    We welcome all three of you here this afternoon. We look 
forward to your testimony. I am sure you are all familiar with 
the 5-minute rule. You will each have 5 minutes to testify. A 
yellow light will come on letting you know you have 1 minute, 
and the red light tells you to wrap up, if at all possible. We 
give you a little leeway but not a whole lot.
    Dr. Cheng, you are recognized for 5 minutes.

  STATEMENT OF MR. DEAN CHENG, SENIOR RESEARCH FELLOW, ASIAN 
 STUDIES CENTER, THE DAVIS INSTITUTE FOR NATIONAL SECURITY AND 
            FOREIGN POLICY, THE HERITAGE FOUNDATION

    Mr. Cheng. Chairman Chabot, distinguished members of the 
committee, thank you for the opportunity to be here this 
afternoon. Ranking Member Faleomavaega, thank you for the 
fortuitous opportunity to address you on your last session 
here. My comments today are my own and should not be construed 
as representing any official position of the Heritage 
Foundation.
    Since the 1980s, when the U.K. Began negotiating with the 
People's Republic of China over the return of Hong Kong, the 
territory has been something like the proverbial canary in the 
coal mine. How Beijing would handle this territory and its 
population of 7 million would reflect broader issues of 
internal Chinese governance, cross-straits relations with 
Taiwan, and prospects for the broader Asia-Pacific region.
    Key questions here were, could the PRC allow pluralism to 
exist within the context of its political system, which is 
dominated by the Chinese Communist Party? Would it allow Hong 
Kong to continue to flourish after it had been returned to 
Chinese sovereignty? And might Hong Kong serve as a bridge for 
a modernizing, increasingly wealthy PRC to liberalize itself?
    In this regard, Hong Kong was seen as the perfect 
experiment. In the first place, Hong Kong already enjoyed 
certain key institutions, including a free press, an 
independent judiciary, and the rule of law. Beijing would not 
have to create these from whole cloth. Instead, it merely 
needed to allow the system within Hong Kong to continue and not 
interfere.
    To further reinforce this point, the PRC was also obligated 
to respect Hong Kong. The Joint Declaration between London and 
Beijing, as well as the Basic Law of Hong Kong, were both 
formal obligations undertaken by the PRC that guaranteed Hong 
Kong's system for 50 years. These documents were seen as 
codifying the idea of ``One Country, Two Systems,'' the 
principle under which Hong Kong was to be returned to Chinese 
sovereignty yet retain its own characteristics.
    Finally, there was the assessment of enlightened self-
interest. Hong Kong was already a major financial hub and a 
major economy in its own right when it reverted to Chinese 
control. Nor was there any question that after 1997 that Hong 
Kong was, in fact, under Chinese control. The PRC was, 
therefore, seen as having every reason to want it to succeed, 
and it was presumed would therefore not interfere with its 
operation.
    Fast forward 17 years and the Chinese position regarding 
universal suffrage and how the Hong Kong Special Administrative 
Region would select its Chief Executive in 2017 suggests that, 
unfortunately, these assumptions and views were far too 
optimistic. China has gone from a still-developing country in 
1997 to the world's second-largest economy, and in the process 
its attitude toward Hong Kong and indeed toward much of the 
region has hardened.
    As the June Chinese white paper on Hong Kong made clear, 
Beijing now emphasizes the ``one country'' part of ``One 
Country, Two Systems,'' and made also clear that Hong Kong will 
maintain its own system only at Beijing's sufferance.
    China's approach to Hong Kong as seen in the suffrage issue 
highlights several key areas of concern. First, there is little 
reason to expect political reform in the PRC for the 
foreseeable future. Some had hoped that Xi Jinping might be a 
closet political reformer, but his approach to Hong Kong hardly 
supports this view. Instead, his handling of the Hong Kong 
situation with little violence and certainly no repetition of 
the scenes and costs associated with Tiananmen Square, now 25 
ago, has probably strengthened his domestic credibility, helped 
in his consolidation of power, but given him little reason to 
liberalize his policies.
    Second, China is demonstrating once again its aptitude for 
political warfare. Political warfare is the hardest form have 
soft power. Much as Russia has employed hybrid or ambiguous 
warfare in its Crimea intervention, China is doing the same in 
Hong Kong and elsewhere in the region. And in particular, we 
can see the exercising of the three warfares: Legal warfare or 
lawfare, public opinion warfare, and psychological warfare.
    China's approach to the franchise and suffrage in Hong Kong 
has been consistent with its writings on legal warfare, which 
focus on the use of the law as an instrument for justifying or 
furthering national aims. This is a much more offensive 
approach, employing the law to achieve previously established 
ends rather than defensively limiting or otherwise constraining 
one's own activities.
    This lawfare approach also complements Chinese public 
opinion warfare methods. Social and news media in China are 
tightly controlled by the government, and once the protests 
began, Chinese Weibo messages, the local equivalent of Twitter, 
were immediately censored.
    Meanwhile, the harassment of Hong Kong activists is 
integral to Chinese psychological warfare methods. The fact 
that even the average protester has been detained or had their 
travels limited serves notice that anyone who protests has 
likely been recorded and will suffer consequences.
    Third, this approach to Hong Kong, and especially the ``One 
Country, Two Systems'', the way it is now defined, is likely to 
lead to greater tensions with Taiwan. The approach of ``One 
Country, Two Systems'' was always intended to appeal the people 
of Taiwan to persuade them to accept reunification, but the 
message from recent events in Hong Kong is a cautionary, not an 
encouraging tale.
    For the United States, this has three implications. China's 
assiduous practice of political warfare is a warning about 
engaging the PRC without carefully thinking through all of the 
angles. We should engage the PRC much as we approach contract 
talks, with no assumption of shared outlooks, although both 
sides are interested in reaching an agreement and avoiding a 
strike.
    In addition, the prospect of heightened tensions across the 
Taiwan Straits means that the Asia pivot needs to be made more 
meaningful. This includes the Trans-Pacific Partnership Trade 
Agreement to underscore that America offers more than military 
solutions.
    But one final element is to strengthen the American 
military presence, including a more robust training and 
exercise schedule with friends and allies, but also expanding 
the provision of more advanced equipment to those same friends 
and allies, whether it is missile defense cooperation with 
Japan and South Korea, military sales to Vietnam, or acting on 
the sale of fighter aircraft and submarines to Taiwan.
    Thank you very much.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Mr. Cheng follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Dr. Richardson, you are recognized for 5 
minutes.

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Mr. Chairman, distinguished members of the 
subcommittee, thanks for inviting me to testify today. I would 
like to take my 5 minutes not to go into details about what has 
happened in the last few weeks, but rather to talk about the 
kinds of recommendations that will protect human rights in and 
the autonomy of Hong Kong where tensions between police and 
protesters really have reached a breaking point.
    The extraordinary demonstrations by a cross-section of 
people in Hong Kong are in our view not simply about the 
composition of Hong Kong's nomination committee. After waiting 
patiently for years for China to fulfill its promise of 
democracy, many are angry at Beijing's political overreach and 
at the Hong Kong Government's growing tendency to marginalize 
the interests of the majority on issues ranging from education 
policy to urban planning.
    In the broadest sense, the current tensions are local and 
logical reactions of people who have enjoyed civil liberties 
and a reasonably responsive government but who now see these 
freedoms increasingly threatened and who have a very clear 
sense of how those rights are denied just across the border. In 
our view, physically removing demonstrators from the streets of 
Hong Kong will do little to answer their underlying grievances 
and will arguably serve to exacerbate them.
    The most critical and urgent step the central and Hong Kong 
Governments can take is to revisit the territory's undemocratic 
electoral arrangements and ensure that the appropriate ones are 
fashioned, as required by Article 45 of the Basic Law, ``in 
light of the actual situation,'' where the majority has 
repeatedly made clear that it favors genuine democracy.
    We urge that both take immediate action, including by 
developing a time-bound and detailed plan to put into practice 
universal and equal suffrage. Any proposals for methods of 
nominations should conform to international human rights 
standards, including those in the ICCPR, which pertains in Hong 
Kong.
    Hong Kong authorities also can and should immediately meet 
with protest leaders and submit a new report to the central 
government acknowledging broad support for genuine democracy 
and asking the National People's Standing Committee to clarify 
or retract its August 31 decision.
    While it is reassuring to see Hong Kong authorities 
investigate several police officers who were caught on camera 
viciously beating a protester, that confidence is undermined by 
repeated incidents of excessive use of force, including in 
recent days where police have used pepper spray at close range, 
hit with batons people who were clearly trying to leave protest 
areas, or tackle and arrest without warning student protest 
leaders. We urge the establishment of an independent 
investigative body to look into the now 1,000-plus complaints 
regarding police conduct.
    At a political level, it would be encouraging if the senior 
leadership in Beijing could accept the idea that people in the 
mainland and in Hong Kong want democracy and not construe 
people's demands for that as a threat to national security. At 
an absolute minimum, Beijing should stop arresting people in 
the mainland for their peaceful expressions of support to the 
demonstrators and lift whatever restrictions have been put in 
place for demonstrators to enter the mainland.
    The United States has expressed concern about violence, the 
right to peaceful assembly, and the rights to vote and to run. 
American officials have said that they have expressed these 
concerns directly to the highest levels of the Chinese 
Government. But much of the commentary, including President 
Obama's remarks while in Beijing, has been so calibrated as to 
be convoluted. Other remarks are superficially sensible, 
calling, for example, that difference between protesters and 
authorities be resolved through peaceful dialogue, but seem to 
deny the reality that Hong Kong people's efforts to do just 
that have been ignored.
    The U.S.'s repeated denials that it had had any role in 
fomenting or sustaining the demonstrations suggests to us that 
it is more concerned in assuaging Beijing's irrational fears 
than standing up robustly for democratic rights. It is 
appropriate to ask why President Obama could be so publicly 
restrained on the topic of elections and democracy in Hong Kong 
while he was in Beijing, yet just few days later offer up 
extensive commentary and support on the same subject in Burma 
and later from Australia.
    One recalls Assistant Secretary of State Victoria Nuland 
handing out bread to demonstrators in Maidan Square, American 
Ambassadors observing elections in other parts of Asia, or the 
U.S. vociferously decrying rollbacks of democratic rights in 
other parts of the world. Why not in Hong Kong? Such an 
approach undermines in our view the U.S.-Hong Kong Policy Act, 
and it enables other governments, which, for better or for 
worse, take their cues on these issues from the U.S., to remain 
virtually silent.
    Arguably most problematic in our view, it telegraphs to 
pro-democracy activists in Hong Kong and the mainland that they 
can likely only count on perfunctory support or recognition 
from the United States.
    So it is encouraging to us to see the reestablishment of a 
Hong Kong Caucus here in the Congress and the introduction of 
an updated Hong Kong Policy Act. We believe this to be a very 
important tool. We believe that increased U.S. Government 
scrutiny and regular reporting are and should be seen as a 
positive obligation, an opportunity to identify critical 
developments and points of leverage in a territory of 
extraordinary diplomatic, economic, and strategic interest to 
the United States.
    Thank you.
    Mr. Chabot. Thank you very much.
    [The prepared statement of Ms. Richardson follows:]
        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. Ms. Currie, you are recognized for 5 minutes.

  STATEMENT OF MS. KELLEY CURRIE, SENIOR FELLOW, PROJECT 2049 
                           INSTITUTE

    Ms. Currie. Thank you, Mr. Chairman. And thank you to the 
members of the committee, in particular Mr. Faleomavaega.
    It is an honor to be here on your last hearing and have the 
opportunity to speak on this subject. It is a real challenge, 
however, to follow my two colleagues who have so ably covered 
so many of the issues here. I will try to add something with my 
remarks.
    I have got a written testimony that I would like to submit 
for the record.
    Mr. Chabot. Without objection, so ordered.
    Ms. Currie. When Mr. Salmon talked about traveling to Hong 
Kong in 1997, he traveled with my former boss, John Porter, on 
that trip. My involvement in Hong Kong began with working for 
Mr. Porter for 5 years in the early and mid-1990s--and late 
1990s too, I guess--and his leadership on that issue inspired 
me to continue to follow the events in Hong Kong and inspired 
my respect for the people of Hong Kong and the efforts that 
they have made over the past 30 years since the signing of the 
Joint Declaration to preserve their democratic rights and 
freedoms.
    And watching what has happened over the past 2 months and 
indeed in recent years, as Beijing has carefully tried to 
rachet back the democratic prerogatives and freedoms of the 
Hong Kong people, has been a very frustrating act. When I 
worked in the Congress--and Mr. Rohrabacher, Mr. Salmon, and 
others will remember these days--the Congress was quite active 
on Hong Kong issues and took a leading role in pushing the 
administration forward in defending the rights and prerogatives 
of Hong Kong people.
    Unfortunately, in recent years both the Congress and the 
administration have gone relatively silent on Hong Kong. In 
particular, as the situation has evolved, we have not seen the 
kind of activism that marked those years around the handover. 
That is natural because that was a particularly important time. 
But the times now have shown that we need to maintain a focus 
on what is going on in Hong Kong and continue to follow up on 
the promises that the United States made when it took up the 
mantle as Hong Kong's guarantor in 1997 as the British 
retreated.
    I believe that this is a role that the United States took 
up willingly and because it has interests in Hong Kong, as Mr. 
Cheng as so ably outlined. But it also is aligned with our 
values. And that is why it is so disappointing to see how the 
U.S. has not stood up for the values of the Hong Kong people as 
well.
    I would like to just go to follow up on some of the 
recommendations that Sophie has mentioned about how the 
Congress can be more active.
    The U.S. handling of Hong Kong has hardly been the only 
example where our reticence has encouraged the worst impulses 
of the Chinese regime. Our Hong Kong policy approach takes 
place against a broader backdrop of reluctance to publicly call 
Beijing out over abuses that are rooted in the structural 
authoritarian nature of the regime.
    Beginning with the period leading up to the 2008 Olympics, 
there has been a perceptible change in U.S. willingness to 
publicly, consistently, and vigorously stand up for the rights 
of Chinese dissidents, Tibetans, Uighurs, and other persecuted 
groups. All democratic governments have become more reluctant 
to speak out over this period, but the absence of a strong U.S. 
voice has exacerbated this long-term trend.
    Given the strong message that the people of Hong Kong have 
sent the world through the Umbrella Movement, however, it is 
clear that the U.S. needs to start acting both on its values 
and its interests in Hong Kong in a more forceful way. The 
recent efforts to again require annual reports on Hong Kong are 
a good start. But Congress needs to hold the administration 
accountable for making these reports a serious policy effort, 
not just a useless box-checking exercise, which they had become 
toward the end when they ended after 2007. I don't know if you 
have read the old reports recently, but they are almost 
content-free, and they virtually ignore what was happening on 
the ground in Hong Kong, both in terms of the democracy 
movement that was emerging there and the growth of civil 
society and the role that Beijing was playing.
    I believe that in order to achieve a more meaningful 
report, the Hong Kong Policy Act should be amended so that the 
next review or the next report the executive branch is required 
to conduct a full interagency review pursuant to the 
presidential determination authority in Section 202 that 
relates to Hong Kong's autonomous status and whether it 
continues to be preserved and include detailed findings 
regarding whether Hong Kong is sufficiently autonomous to 
continue receiving the beneficial treatments that it currently 
receives.
    In addition to findings on detailed issues in cooperation 
with counterparts in Hong Kong, the report should also focus on 
the overall political context and progress for its genuine 
democratic reforms. The House Foreign Affairs and Senate 
Foreign Relations Committees should consider holding annual 
joint hearings on the reports as well. And Congress should also 
speak out more directly on its concerns through passing of 
resolutions and legislative action as needed.
    The administration also needs to speak up in defense the 
Hong Kong more publicly, more often, and more clearly. It 
should stop issuing the kind of confused statements that Dr. 
Richardson mentioned and that ignore China's failure to live up 
to the promise of ``One Country, Two Systems''. We should also 
not forget those on the mainland who were detained solely for 
expressing support for the Umbrella Movement.
    The U.S. should work with his partners in the U.K. To 
address China's implementation of the Joint Declaration through 
efforts such as joint commissions of inquiry and joint 
demarches. The U.K. Is our closest ally and international 
partner, and their credibility is on the line here as well, due 
to their failure to stand up for liberal values in Hong Kong.
    Likewise, we should look for opportunities where they may 
exist at the U.N., bearing in mind the low likelihood of any 
effective action. However, Beijing deeply dislikes being 
confronted at the U.N., so those opportunities at least do put 
the issues in a forum where they have to respond to them.
    The U.S., the U.K., and Commonwealth countries such as 
Canada and Australia, should also develop a joint protocol and 
treatment of student visa applicants who have been arrested for 
peaceful political activity. This is a very important issue 
because of the importance of education and study abroad for 
Hong Kong students and our requirement that if you have been 
arrested you have to list this on your visa application. We 
shouldn't penalize people for engaging in civic activity in 
Hong Kong.
    Mr. Chabot. Is your testimony about done?
    Ms. Currie. Yes. I am done.
    Mr. Chabot. Thank you.
    Ms. Currie. Finally, any cuts in Cantonese broadcasting on 
RFA and VOA should be restored so that we can continue to get a 
positive message out as media censorship rachets up in Hong 
Kong and outlets for genuine expression continue to be closed 
down there. Thank you.
    Mr. Chabot. Thank you.
    [The prepared statement of Ms. Currie follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Chabot. And we thank all the witnesses for the 
testimony. I will now recognize myself for 5 minutes.
    It is disconcerting to know that while protests in Hong 
Kong continued, the administration was working behind the 
scenes to finalize deals and new initiatives with China which 
were announced following the APEC Summit last month, deals that 
raise a lot of questions themselves. I think it is logical to 
conclude that one of the reasons for the administration's weak 
responses and tepid support for pro-democracy forces in Hong 
Kong was to ensure that these deals didn't fall through.
    Looking ahead, what are the potential tradeoffs for U.S. 
policymakers between more forcefully pursuing democratic reform 
in Hong Kong on one hand versus pursuing other goals with 
Beijing? Do you think the administration's tip-toeing on 
providing support for the people of Hong Kong is ultimately 
more harmful for our role in Asia than helpful?
    And I would welcome any of the panel members. Dr. Cheng, 
would you like to take that?
    Mr. Cheng. Well, sir, to begin with, I think that one of 
the great flaws of the approach that you have outlined that the 
administration is pursuing is the fact that many of these 
agreements, at least at this point, have few published details. 
And the devil, as they say, is in the details, especially 
because the Chinese have demonstrated with the issue of 
suffrage their adeptness at legal warfare.
    So with the example of the climate change regulations, who 
will measure China's emissions? Whose statistics will they use? 
We know that Chinese statistics are often only perhaps 
glancingly associated with reality. As a result, we seem to be 
placing ourselves at the, essentially, mercy of Chinese 
statistics. To trade off our longstanding commitment on the 
issue of values, as my fellow witnesses have highlighted, in 
exchange for a promise of Chinese compliance based on their 
statistics makes buying a pig in a poke a sure guaranteed 
bargain by comparison.
    At the same time, it raises questions among many of our 
allies about the kind of allied and commitment we have to them. 
If we are not going to stand up for our principles, things of 
longstanding interest, in exchange for airy promises, what 
happens when it is the potential commitment of U.S. force, 
whether it is to places like the Senkakus or to ensuring 
freedom of the seas in the South China Sea?
    Mr. Chabot. Let me ask a different question to the other 
two witnesses if I can here, because my time, I am through it 
already.
    This past weekend, the most well-known student leaders were 
arrested, including Joshua Wong and Lester Shum, in a manner 
that demonstrated an alarming level of force from the Hong Kong 
police. Ms. Richardson or Ms. Currie, do either of you have an 
update on the status of these individuals or do you have a 
sense of whether they will be charged, and if so what they 
might be charged with?
    Ms. Richardson. Thanks for the question. The footage of 
their detention was indeed alarming. There appears to have been 
no provocation. They did not seem to be presenting any sort of 
imminent threat to the police. They are also hardly, if they 
were standing right here, I think we could say that they are 
not especially physically threatening people. And so the way in 
which they were arrested that day is particularly alarming. 
They were tackled to the ground, they were cuffed, no warning 
was given, and no request seems to have been issued that they 
effectively surrender themselves.
    They have both been released. It is not clear whether 
charges are going to be pursued. It is worth nothing that Mr. 
Wong was actually previously detained for about 48 hours until 
a judge, in really the finest we expect of Hong Kong's judges, 
essentially said the police have absolutely no basis to have 
detained him and let him go. But that was not until he had been 
detained and his computer had been seized and searched.
    It is hard not to see tactics like this as both evidence of 
lack of discipline in some circumstances on the part of the 
police, but also a way of telegraphing to other student leaders 
that this is what might be in store for them as well.
    Mr. Chabot. Thank you.
    Let me squeeze one last question here and a quick response, 
if I can. Today the founders of the pro-democracy campaign 
asked student protesters to retreat over concerns of growing 
violence at the hands of the police, who have used batons and 
pepper spray and teargas to drive back crowds.
    If they do indeed back down and return home, where do we go 
from here? Will that essentially indicate that they are 
capitulating to China or, as the founders stated, is it rather 
a silent denunciation of a heartless government?
    Ms. Currie. I am going to go with the latter. I think that 
what has been amazing, not just the past 2 months but 
Scholarism and the Occupy Hong Kong With Love and Peace 
movements that predate the past 2 months. And the activities 
that they have undertaken have shown a level of civic 
commitment, discipline, and just plain politeness and 
competence in engaging the authorities, I think that many 
people have been surprised by the youth of Hong Kong and 
heartened by how they have stepped forward and filled in this 
space.
    I think that Beijing fell back on its usual Marxist-
Leninist tactics of ignoring the moderate opposition of Martin 
Lee, Emily Lau, Anson Chans of Hong Kong who wanted to engage 
them through official channels and do things moderately. And 
that didn't create enough of a crisis in order to justify 
heavyhanded rule, so they had to force a confrontation. But, 
unfortunately for Beijing, the demonstrators and the people 
involved in the Umbrella Movement have shown themselves to be 
of the highest caliber of character for the most part, with a 
few exceptions, obviously, but when you have that many people 
involved there will be.
    But I don't think they are going anywhere. The ideals they 
represent and the voices they represent and the issues that 
they represent aren't going anywhere, so they aren't either.
    Mr. Chabot. Thank you. My time has expired. Let me just 
conclude by saying very briefly that I am very heartened by the 
people of Hong Kong and the bravery and the standing up for 
their rights that we have seen. I have to say I am disheartened 
by the administration's lack of support there, just as I was in 
the Green Revolution in Iran a few years back.
    And my time has expired. I will now yield to the ranking 
member for his questions.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I certainly want to thank all our three witnesses this 
afternoon for their statements and the positions they have 
taken concerning this important issue.
    Just wanted to ask all the three members of panel, the 
administration supposedly says that they do not take a position 
at this time toward the situation now in Hong Kong. Do you 
support universal suffrage or do the protesters there in Hong 
Kong, what is your perception? If I were Chinese, I would say 
this is a local matter, what is it there for Americans to tell 
me what to do and how to do it? And I would like to ask the 
three panelists for your response to that.
    Ms. Currie. There are internationally recognized standards 
for what universal suffrage is. And it includes, as one of the 
members earlier referred to, one person, one vote. And it also 
includes the right of people to choose their own leaders.
    This is very important. In Burma, President Obama talked 
about this in the context of the Burmese elections, about the 
need for the Burmese people to be able to choose their own 
leaders. But yet in the Hong Kong context the administration 
says we don't take sides. This is deeply problematic.
    Mr. Faleomavaega. Dr. Richardson.
    Ms. Richardson. Just another point about international law, 
which is equally unbelievably clear that people have the right 
to run. There cannot be restrictions, undue restrictions on who 
is able to run, which is really the crux of the August 31 
decision.
    I think people in Hong Kong have made it painfully clear 
that they want to be able to vote, they want to be able to 
choose who they are voting for and how these people represent 
them. I think this is really not just about the finer points of 
electoral arrangements. I think people feel that the Hong Kong 
Government progressively less responsive to them and that this 
is another way in which their ability to control or have input 
into public policy is eroding.
    But I think the important point is that they have made it 
clear what they want. Also, look, let's just be very clear, the 
administration is perfectly capable of taking sides either in 
choosing party A or party B when it suits it. It is also 
perfectly capable of answering this question with respect to 
principle, and it has been awfully squeamish in both regards.
    Mr. Faleomavaega. Mr. Cheng.
    Mr. Cheng. I would also just note here that the National 
People's Congress's white paper in June and its statement on 
August 31 would seem to constitute at best an infringement, if 
not a violation in many ways of both the Joint Declaration and 
the Basic Law. Now, it is up to the National People's Congress 
to interpret these aspects, but to come up with an 
interpretation that is almost directly 180 degrees from what is 
stated really calls into question China's commitment to 
upholding international agreements.
    So the issue here is as much one of do you live up to your 
international commitments, and, if you don't, then it is for 
the United States, a key trade partner, a key presumably 
negotiating partner, to call you on this as part of enforcing 
international order.
    Mr. Faleomavaega. So will there be an agreement among the 
three members of the panel that there should be universal 
freedom to that extent, allowing the people of Hong Kong to 
decide for themselves their future politically and 
economically? Does that seem to be your position on this?
    Mr. Chabot. I think all three witnesses have nodded in the 
affirmative.
    Mr. Faleomavaega. I have said in my statement that I have 
always been very critical of our U.S. foreign policy toward the 
Asia-Pacific region, which has been no policy, in my opinion. I 
take this position because I feel that the mentality and the 
focus of our entire foreign policy is toward the Middle East 
and Europe, but when it comes to Asia-Pacific we get mixed 
signals. Every administration, every Congress, if you will, and 
even the people and the leaders in the Asia-Pacific region that 
I have met, they say, hey, what is going on? What is your 
position? Give me these basic principles that we are 
discussing.
    So that is my concern, Mr. Chairman.
    And would you like to comment on that?
    Ms. Richardson. I would love to comment on that and bring 
it back to a point that Mr. Rohrabacher raised in his opening 
remarks about, you were, I think, referencing a piece that was 
in Foreign Policy about whether the Obama administration has 
any senior people on China. I mean, look, the administration is 
filled with lots of people who have lots of China experience. 
Some of them are ferocious defenders of human rights, and we 
appreciate them.
    I think the problem is that there is no policy, and there 
hasn't been for quite some time. And arguably one of our real 
points of frustration has been to be presented with significant 
numbers of people with fairly deep China experience who have 
yet to craft a policy that is coordinated and executed from 
senior levels on down.
    Mr. Faleomavaega. I am sorry. My time is up. Thank you, Mr. 
Chairman.
    Mr. Chabot. Thank you very much.
    The gentleman from Pennsylvania is recognized for 5 
minutes.
    Mr. Perry. Thank you, Mr. Chairman.
    Ladies and gentlemen, I will start with Dr. Richardson and 
Ms. Currie. Recently Secretary Earnest made the statement the 
United States supports universal suffrage in Hong Kong in 
accordance with Basic Law, and we support the aspirations of 
the Hong Kong people, while at the same time--I think you 
already alluded to this. I just feel like it is important to 
have it on the record--the U.S. Consulate in Hong Kong said, we 
do not take sides in the discussion of Hong Kong's political 
development.
    With that, is the administration sending mixed signals in 
Hong Kong or to Hong Kong to the protestors? Same thing, are 
they sending mixed signals to Beijing? And is there a clear 
policy at all from the administration in this regard?
    Ms. Currie. Yes, they are sending mixed signals, both to 
the protestors and to Beijing. And, no, there is not a clear 
policy. I think that what you saw was the consulate issue a 
terrible statement that they were called on the carpet for, 
rightly so, by various quarters, and then Josh Earnest, trying 
to walk it back into something that is a little more 
appropriate, in line with the historic posture of the United 
States on Hong Kong and the Hong Kong Policy Act.
    But, again, it fits a pattern that Sophie just described of 
incoherence, of reactiveness. You have the so-called pivot or 
the rebalance that is unbalanced and not strategic in any real 
way and not rooted in American principles in any real way, and 
it causes them to constantly be spinning around saying one 
thing one day and something else the next. It is a problem 
across the board.
    Mr. Perry. Okay. I just wanted to get your input because I 
see this as a continued failure of foreign policy of which 
there are many strikes at this point. But moving on, other than 
the rhetoric that Mr. Sherman talked about earlier that we can 
engage in, I want to see us take more concrete action, or some 
concrete action.
    And let me just ask you this. Regarding what the Congress 
should do, United States Congress should do, would passing 
legislation to make Hong Kong eligible for the U.S. visa waiver 
program be a viable alternative that might make some form of a 
difference.
    Ms. Richardson. It strikes me as a perfectly sensible 
strategy to pursue. I think one of the difficulties in 
developing legislative responses to the crisis in Hong Kong is 
ensuring that the people of Hong Kong aren't being punished for 
essentially the mistakes or the problems caused by the central 
government or the failures of the Hong Kong authorities. It is 
difficult sometimes to separate those out.
    I do want to go back very briefly to the question you asked 
a moment ago which is simply to say that I think when this 
administration has been good on China and human rights issues, 
it has been very good. I will point, for example, to its 
reactions to the life sentence given to Ilham Tohti, a very 
prominent Uighur economist. There were statements from the 
White House, from the State Department, from the Secretary. The 
President mentioned Ilham Tohti at a speech in New York. But 
the unwillingness to deal with these issues or raise them 
publicly while in Beijing or, indeed, give remarks to the 
Chinese press in an interview to Xinhua, I think really 
undermines the comments about Ilham Tohti.
    The President made reference to ETIM, the East Turkestan 
independence movement. Experts have debated for years about 
whether it even exists, without providing information to 
substantiate that claim and in effect hang a bulls eye on any 
Uighur identified by the Chinese Government as being associated 
with ETIM is hugely problematic. And so it is this very, very 
inconsistent response. And one would like to think that this 
far in you could get a more consistent reaction, but that seems 
to be extremely difficult.
    Mr. Perry. Because my time is going to expire and I want to 
spend some time with Mr. Cheng, I think I will stick around for 
round two. But just keeping with your current line of thinking 
and responding, do you think that what you just described as 
putting a bulls eye, so to speak, on those folks that would be 
interested in that movement, is that borne out of ignorance? Is 
there some method to it from this administration or are they 
just clueless about it? I mean, how does that come about? They 
have not consulted with the right people that know something 
about the situation?
    Ms. Richardson. Mr. Perry, I would be delighted to have a 
good answer to that question. I don't.
    Let me be very clear. There have been horrific attacks 
against civilians in Xinjiang. That is absolutely clear, and we 
have condemned them. But I think the administration has fallen 
peculiarly prey to a Chinese Government line. We are going to 
hear that line again and again and again from Beijing in every 
discussion about Xinjiang and terrorism for years to come. How 
that sentence wound up in that interview, I do not know. And 
believe me, it is not for want of asking.
    Mr. Perry. Thanks, Mr. Chairman. I yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from California, Mr. Sherman, is recognized.
    Mr. Sherman. I want to pick up where the gentleman from 
Pennsylvania left off. I can't agree with the idea of a visa 
waiver for either Hong Kong or China, simply because we can't 
create a circumstance where anybody who can get a Hong Kong 
passport gets right into the United States. Over half the 
illegal immigrants or roughly half the illegal immigrants in 
the United States today came here on an airplane and their 
entry into the United States was legal. And given the 
incredible poverty of some in China, and even some in Hong 
Kong, I don't know if we can go visa waiver. I do see the 
reciprocity approach of how long a visa, once issued, is good 
for and how many different trips you can make, but those are 
only to people that we have decided will not be economic 
immigrants to the United States.
    But I do want to pick up on the gentleman from 
Pennsylvania's question, and that is, other than rhetoric is 
there anything we can do to express our dissatisfaction with 
this violation of the commitments of Beijing to the people of 
Hong Kong?
    Mr. Cheng. Well, to begin with, sir, on the issue of visas, 
for example, one of the things that clearly is important here 
is the opportunity to bring more information from Hong Kong out 
to the broader world and more information from the outside 
world to Hong Kong. Part of the issue here is the fact that the 
Chinese refuse to issue visas to journalists, and in fact at 
the joint press conference between President Obama and 
President Xi, he in turn lectured the New York Times about how 
if you don't get visas, it is your own fault.
    Mr. Sherman. Right. And that applies even to journalists 
going to Hong Kong, let alone those going to the rest of China.
    Mr. Cheng. Certainly there are controls, observations and 
the rest.
    Mr. Sherman. I think we have gotten an awful lot of 
information from Hong Kong during the present unrest. It is not 
like there is a shortage of Americans visiting Hong Kong. I 
think we are getting a fair amount of information.
    Mr. Cheng. We are, but that information comes out. That 
information doesn't necessarily go back in, and the Chinese are 
very, very tightly controlling their media. At a minimum, 
demanding reciprocity, given the number of official Chinese 
journalists in the United States, and creating that kind of 
reciprocity on the press visa aspect, would be----
    Mr. Sherman. I certainly don't want to reduce the number of 
Chinese journalists here.
    Ms. Currie, I think you had a important point also about 
visas, which is that being arrested by the Chinese Government 
for a political crime should not count against somebody in 
getting a visa to the United States. Does the State Department 
have the procedures now to make sure that we can tell the 
difference between a pickpocket and a political activist.
    Ms. Currie. Frankly, we don't really, especially in a high-
volume visa office like the consular office in Hong Kong.
    Mr. Sherman. Do we even have something on the form where 
you can say, I have been arrested but it was political?
    Ms. Currie. There is a place on the form where you say that 
you were arrested, and then you can explain the circumstances. 
But the average consular officer, you have to remember, is a 
brand new foreign service officer usually serving their first 
tour overseas, and their inclination is generally to say no.
    Mr. Sherman. We have got to somehow bring in the State 
Department, and I don't care how junior these people are, they 
can't be discriminating against people because they have been 
arrested for political rights and expressing themselves 
politically.
    I just want to say that this all comes from our insane 
trade policy toward China since we granted MFN. We have this 
enormous trade deficit which creates this huge debt which 
causes Americans to shrink from criticizing China, because oh, 
my God, they loan us so much money, money we wouldn't have to 
borrow if we were allowed to sell our goods to China. And it 
also creates these enormous profits that create some of the 
biggest names in our country, biggest corporations in our 
country, becoming lobbyists against doing anything to undermine 
the insane trade policy that started it all.
    I don't think we are going to have a balanced policy toward 
Hong Kong until we have balanced trade. I might also point out 
that if we had balanced trade with China we would have a labor 
shortage and significantly increased wages in this country. 
That could happen if we adopted Warren Buffett's idea of 
legally required balanced trade. I don't think that is likely 
to be adopted any time soon. I don't know whether Mr. Cheng had 
a comment on that.
    Mr. Cheng. Sir, I think that part of the fundamental 
concept of trade is, of course, competitive advantage. Whatever 
else the Chinese are guilty of, and they are guilty of quite a 
few things, the reality is that we are not going to create or 
recreate the textile industry in this country regardless of----
    Mr. Sherman. Sir, reclaiming my time. Germany exports to 
China. We don't. Those are political decisions. The American 
workers are the best in the world. The American products are 
best in the world. And the huge trade deficit is not because we 
don't provide value. It is because of the slanted trade 
policies and IP policies of China. And blaming the American 
worker, blaming the American product for the decisions made in 
Beijing is not the way I want to go.
    I yield back.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman.
    I would remind Mr. Sherman that I have a piece of 
legislation that suggests that we should not be permitting more 
Chinese journalists to come to the United States than they 
permit us to have our journalists come and operate in China. So 
reciprocity would be, I think, one tool, especially considering 
that the vast majority of their so-called journalists are 
actually spies and people who have come here to do us harm and 
propagandize for their dictatorship rather than trying to find 
honest information to provide for the Chinese people. So I 
would think that would be a good way to deal with that.
    We don't seem to have any reciprocity with the Chinese. I 
mean, didn't we give most favored nation status to China after 
they slaughtered the democracy movement in Tiananmen Square? 
What was our reciprocity there? In fact, it was just the 
opposite. We gave them a reward even though they had just 
committed an evil action. WTO was, of course, permanent most 
favored nation status, was granted by the Clinton 
administration. Let me just note again this is bipartisan in 
the sense that Herbert Walker Bush was the one who originally 
came out kissing the feet of these gangsters in Beijing and 
followed by Bill Clinton, all anxious to do favors for these 
omnipotent rulers of Beijing who rule with an iron fist.
    China is, because of its size and other factors, should be 
considered the world's worst human rights abuser. We were told 
there would be some impact on that if we just simply did 
business with them. And I think, Mr. Sherman, before you leave, 
I would like to make sure I back up your point--I don't think 
he hears me--back up his point. The Chinese are not, as you 
say, outdoing us economically because of the American worker. 
We have given enormous economic benefits to them in terms of an 
open market, in terms of capital investment, in terms of 
turning our face away and letting them get away with the 
massive threat of American technology which has basically 
permitted them to introduce products to the market that were 
based on our R&D. So they don't have any R&D costs. We are 
picking it all up for them. No wonder they can charge less.
    I think that the people of Hong Kong are our greatest ally 
in the fight for freedom and peace in this world because they 
are confronting the world's worst human rights abuser. Just as 
when we ignored and betrayed the people in the Tiananmen Square 
democracy movement, we now have a world that is less peaceful, 
we now have a world that is more at risk because of this 
vicious dictatorship that stays in power. The young people, the 
young activists in Hong Kong today, if they are successful, 
will create a better world, a more peaceful world, a world in 
which the Chinese and American people will deal with each other 
as equals and not having a President being afraid to bring up 
whatever issue with the leader, with his counterpart in 
Beijing.
    I think that it is quite obvious where we could actually be 
doing things that would counteract or at least put ourselves to 
be taken seriously by the Chinese. There are things we could be 
doing, and especially when it comes in the economic area.
    But also, look, when the Chinese Government decides that 
they are going to commit armed force against people who have a 
territorial dispute, whether it is against India, whether it is 
against Japan, whether it is against the Philippines, whether 
it is against Vietnam----
    Mr. Connolly. Or Crimea.
    Mr. Rohrabacher. Well, that is what I am saying. In Crimea, 
Putin sends a couple troops across the border into areas that 
want to be part of Russia and we go bananas. But China commits 
all of this force across the way in disputed territories, there 
is no price to pay. Well, we need to have a little bit more of 
a consistent pro-freedom policy, and if we do, like the people 
in Hong Kong, like the activists in Hong Kong, the people of 
this world will help build a better world, and we will be on 
their side.
    Thank you very much.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    The gentleman from the Commonwealth of Virginia is 
recognized for 5 minutes.
    Mr. Connolly. I thank my friend, and I couldn't resist 
helping my friend from California because I wanted him to have 
an all-inclusive list.
    Thank you, panel, for being here. And I want to get in two 
sets of questions if I can. I pray I can get it in.
    One is, I would be very interested, and I am going to start 
with you, Dr. Richardson, because you said the problem is not 
that the Obama administration hasn't done good things in human 
rights and other areas, it has, but the problem is no policy. I 
would like to explore that. What ought to be our policy in Hong 
Kong, and what is our leverage? Let's have a realistic, not a 
quixotic policy.
    And then secondly, the second question I want to get at 
with the three of you is, what is the impact on Taiwan? Taiwan 
is watching all of this. If there was any appetite in Taiwan, 
and there was, for maybe a similar model some day in the 
future, what is the impact on Chinese behavior vis--vis Hong 
Kong, do you think, on those aspirations or those political 
dynamics in Taiwan?
    So the first question, what ought to be our policy? And 
what leverage do we have to try to fashion it?
    Ms. Richardson. Let me try to answer the first one very 
quickly about policy. I think one of the big problems is that 
15 years ago when we were having the PNTR debate, human rights 
issues occupied a much larger piece of the policy pie. And as 
the relationship has deepened and expanded and there are dozens 
and hundreds of competing interests, the amount of time and 
attention that is given to human rights issues has shrunk.
    What we have wanted to see is a much more thoughtful policy 
approach that recognizes human rights issues and human rights 
protections as fundamental to a host of different issues in the 
relationship. Quite like Mr. Rohrabacher's point about pro-
democracy protestors in Hong Kong as allies, these are the 
people who are arguing for protections that are just as 
important for their electoral processes as they are for U.S. 
businesses to do what they do and succeed in that part of the 
world. It is about a free press and an independent judiciary 
and a free flow of information.
    I think the fact that no more thoughtful policy has been 
developed such that human rights-related requests or demands 
can be leveled by many different actors in the U.S. 
relationship, that it remains almost exclusively the purview or 
the burden of the State Department as they sometimes view it, 
has made it very easy for the Chinese Government to essentially 
minimize and not react to the kinds of demands that are made.
    There are certain practical tactics that really aren't used 
very well any more, the demands of releases. Even the 
clarification after the President's visit of the human rights-
related requests that were made in advance of the visit that 
weren't fulfilled. Right? I mean, there are levers that aren't 
being pulled, but there is also the very obvious value of 
public rhetoric and challenging Chinese officials publicly, 
which is something they deeply dislike and usually will move to 
try to avoid. And I think making that a regular part of an 
interaction, whether it is Secretary Johnson or whoever runs 
the Pentagon or Secretary Kerry, is critical. I am going to 
leave the Taiwan question.
    Mr. Connolly. Yeah. I agree with you wholeheartedly, and I 
think human rights always must be a hallmark of U.S. diplomacy, 
and we retreat from who we are when we don't make it one. 
Having said that, it must also be done carefully and subtly, 
that question of leverage again.
    Well, if I announce that I am forming Democrats for Chabot 
for Speaker, I guarantee you that is not helpful to Steve 
Chabot and in some quarters might even make him suspect, that 
he is so friendly with people like me. So in a more serious 
vein, we need to be careful that with the best of intentions we 
don't put a target on somebody by virtue of our blessing and 
imprimatur. So it has to be done with skill, is my only point.
    Ms. Richardson. I am all for skill, and I am all for 
nuance, but I also think we are not yet at a point in time--and 
we should be--where a host of interests across the U.S. 
Government recognize the Ilham Tohtis, the Puder Changs, the 
Gao Yus, all of these people who have gone to prison in China 
as allies for their interests as well and go to bat for them.
    Mr. Connolly. That is right.
    Ms. Richardson. This is not an enormous analytical leap. 
And this problem is getting significantly worse in the 
mainland, and it requires a much more robust response.
    Mr. Connolly. Good point.
    Mr. Cheng, on Taiwan.
    Mr. Cheng. Very quickly, sir, 2016 will be a crucial year, 
and I would predict that we are going to be looking at much 
worse cross-straits relations. The recent elections in Taiwan 
have already seen a significant growth in DPP popularity and 
power. This was not necessarily key to what has been going on 
in Hong Kong specifically, but there is no question that the 
people in Taiwan who are skeptical of reunification look at 
what has happened in Hong Kong as a very important warning.
    The cross-straits relationship has been calm for the last 6 
years, in no small part because President Ma Ying-jeou chose 
not to emphasize independence. But the prospect of a pro-
independence government arising in Taipei is especially 
difficult to calculate because Xi Jinping himself was not 
within the inner circle of power when there was a previous DPP 
President.
    So essentially you could wind up in 2016 with three sets of 
leaders, all of whom have very different interests, a potential 
DPP President possibly, but certainly more pro-independence 
sentiment on the island; Xi Jinping, who would be confronted 
with a pro-independence attitude on the island; and of course 
we ourselves are going to be very, very focused on our own 
electoral politics, and perhaps, as the ranking member noted, 
not necessarily paying the right amount of attention to that 
region as the pot begins to boil.
    Mr. Connolly. Thank you. And Mr. Cheng is a constituent of 
mine, and his brilliance is obvious.
    Mr. Chabot. Thank you. The gentleman's time has expired.
    We will go on a second round, but we are going to have 
votes here very shortly, so if we can keep it. I will just ask 
one question. And my colleague and friend from Virginia has 
already brought it up. I was going to talk about Taiwan, so I 
will just bring it up very briefly because you already 
addressed it, Mr. Cheng, very well.
    And that is, relative to Taiwan, obviously they can't have 
helped but observe China's thuggish behavior in Hong Kong, and 
I think it probably did send a message in the recent election 
to some degree because KMT was soundly defeated in the local 
elections around the country.
    Now, President Ma, to his credit, had spoken out in favor 
of the Hong Kong protestors. And so you addressed the question 
really. I just really wanted to get back, as one of the 
cofounders of the Congressional Taiwan Caucus, what impact will 
this have, if any, on the public's attitude toward China and 
reconciliation versus independence versus maintaining the 
status quo, et cetera?
    Mr. Cheng. As we saw this summer with the Sunflower 
Movement which took over the Taiwan legislature, there is a 
growing unease, frankly unhappiness in Taiwan toward the 
current status quo. There is a perception that the island is 
falling ever more under the sway of Beijing. And if Beijing 
were living up to its commitments, was truly valuing things 
like ``One Country, Two Systems'', that might produce one 
dynamic. But as we have seen in Hong Kong, what this really is 
saying is, from the people of Taiwan it seems, we don't trust 
you as a partner.
    Now, the problem is that, and we saw some of this in Hong 
Kong, is Beijing doesn't take to that sort of skepticism very 
well. And the sad reality is that Taiwan's security is eroding. 
There have been reports from our own military about how 
Taiwan's ability to control the air space and sea space around 
the island is deteriorating. There has not been a major arms 
sale to Taiwan in years. The recent sales have mostly been 
fulfilling previous commitments dating back over a decade. 
Taiwan has been asking for the U.S. to allow teams to go and 
study the problem in Taiwan, and those requests apparently are 
sitting on some State Department desk for years.
    By the way, this is bipartisan. It is not simply this 
administration. They has been sitting on those desks dating 
back to the previous administration. This sends a signal, 
unfortunately, to Taiwan that maybe you should try and cut a 
deal, unfortunately, with an unreliable partner.
    Mr. Chabot. And if I were a resident in Taiwan, I would be 
particularly concerned when they hear stories about the 
administration's goal to reduce our military back to pre-World 
War II levels at a time when the PRC has increased their 
military expenditures by double digits every year for the last 
25 years.
    That being said, I think that the U.S. should continue to 
maintain a very strong relationship with Taiwan, and we should 
be there for them. They are a role model for other countries 
around the world, and we shouldn't let them be bullied by the 
PRC.
    That being said, I will yield back the balance of my time 
and turn to the gentleman from American Samoa.
    Mr. Faleomavaega. Mr. Chairman, I have no further questions 
other than to again thank our distinguished panelists for their 
statements and their positions. And I certainly want to thank 
you for your leadership and your service to our committee and 
to our country. Yes, this will be my last subcommittee hearing, 
and it has been my distinct honor and privilege of having 
served with you and the other members of the committee, 
hopefully being helpful in developing a better world.
    Thank you, Mr. Chairman.
    Mr. Chabot. Thank you very much.
    The gentleman from Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman.
    I will turn to Mr. Cheng. We spoke briefly prior to this 
about China and the fact that they aren't a very good neighbor. 
They are happy to--well, we in this country are oftentimes 
accused from within and without of being imperialist. They on 
the other hand go ahead and take the minerals and the raw 
materials--with a deal, they make a deal with somebody, some 
nation, to take the raw materials. And as you aptly put it, 
they don't lecture. Of course, they are not in any position to 
lecture, but they don't lecture. They are happy to do that. But 
as a world actor on the world stage, they are not a very good 
neighbor in the way that we would see one.
    That having been said, why do you suppose there is this 
reluctance from this administration to take quantifiable action 
regarding Beijing's actions in Hong Kong--cyber crime, the 
physical incursions in the China Sea, et cetera. Why do you 
suppose there is this reluctance? And I said to you, and I just 
want you to recount your statement, I said to you, is it 
because we borrow so much money from them and we are concerned 
that that would jeopardize that? If you could just elaborate.
    Mr. Cheng. Sir, I do not believe that the administration is 
reticent because of the concern over issues of debt, because, 
frankly, China purchases American debt more because of the 
situation with its own currency which is under very tight 
control, which is not free floating. China is not really in a 
position to replace the U.S. as a global reserve currency. It 
is buying American debt because it is probably the best and 
safest place to put China's surpluses short of building the 
world's largest mattress and stuffing all of that money 
underneath.
    I do believe, however, that the administration has chosen 
to value other things more highly than in some cases our 
principles and in other cases our traditional strategic 
interests. The administration, for example, trumpeted the 
climate change agreement as a huge advance despite lacking in 
details. This dates back to 2009 when the administration made 
very clear that what it wanted from China more than anything 
else was an agreement at the Copenhagen climate talks.
    So I believe that the administration is pursuing what for 
it is a rational choice of saying what they value, which seems 
to be on issues of things like climate, and on more nebulous, 
less concrete things from their perspective, such as human 
rights or American security commitments to the region, it is 
willing to offer those up.
    Mr. Perry. Thank you.
    Moving on, I would just like to make one clarification 
while I have got the mike. A good friend from the other side of 
the aisle commented that my interest in potentially modifying 
the visa waiver program would be untenable because he included 
all of China in the discussion where I did not ever advocate 
for all of China, just Hong Kong specifically. I also find it 
very telling and interesting that he would continue with 
restrictions for political dissidents, meanwhile advocating for 
an open southern border, which he currently is, as far as I 
know.
    That having been said, again to you, Mr. Cheng, if you can 
just codify very simply, what are our interests in Hong Kong, 
and why should Americans care? Why should Americans care? Why 
should we invest? What are our interests? If you can codify 
that pretty simply, I know that is hard to do. I have got about 
1\1/2\ minutes left, which is yours.
    Mr. Cheng. Sir, some of the issues at stake here, at the 
most materialistic end, this is a global financial hub. You 
create massive disruption if you have instability in one of the 
world's truly global financial centers. You raise questions 
about the American commitment to its principles when we walk 
away from people who want to be free.
    My colleagues here have stated quite eloquently the issue 
of values and where they stand and how we are perceived with 
regards to those values and especially if we walk away from 
them. And, frankly, we also send the wrong message to Beijing 
about what is in its interests if we mislead them into thinking 
that they can violate agreements without consequences. At some 
point, if somebody keeps getting away with things, they are 
going to keep on doing that.
    Mr. Perry. Thank you, Mr. Chairman.
    Thank you, panelists.
    I yield back.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Virginia is recognized.
    Mr. Connolly. Thank you.
    First of all, Mr. Cheng, I agree with your last statement. 
I believe Beijing in a sense respects one thing: Power. And it 
is a mistake for the United States not to sell weapons to 
Taiwan. It is a mistake for the United States not to show, in 
fact, a fortified relationship with Taiwan, especially in light 
of the developments in Hong Kong. It is a mistake for the 
United States not to make it very clear, at least in diplomatic 
sessions with the Chinese, we care a lot about that, and it 
will impinge the relationship, as Dr. Richardson, I think, was 
suggesting in a previous answer to my question.
    I do want to be fair though. I know you are from Heritage 
Foundation. But with respect to Mr. Perry, it is hardly limited 
to this administration that we pull our punches with China. I 
wish that were true. Since Richard Nixon went to Beijing and 
visited with Zhou Enlai and saw the Forbidden City and the 
Great Wall, every succeeding administration has made 
compromises that make one sad about U.S. principles and virtues 
and values because they are weighing various and sundry 
factors, and there seems to be this ethos we can't afford to 
make the Chinese angry. And it seems to me that that is the 
wrong calculus, even if it is noble in intent.
    And I wonder if you might all want to comment on that 
because I am cochair of the Taiwan Caucus, and I feel that it 
is really important we not equivocate about the Taiwan 
Relations Act commitments to Taiwan and that Beijing is always 
calculating those misses. And we have now virtually given 
Beijing veto power over weapon system sales, as Mr. Chabot 
indicated, to Taiwan, and I think that is a terrible mistake. 
But at any rate, your views. Question of what does Beijing 
respect and how does that fashion or should fashion or 
influence U.S. policy.
    Ms. Currie. I agree with you that this is a bipartisan 
problem and it largely tends to be focused in the executive 
branch, but not exclusively. When I worked at the State 
Department it was very frustrating at times to see the way in 
which the Department and the government as a whole, the 
executive branch as a whole, would curl into a self-protective 
ball when it came to dealing with China and choose the issues 
that they would raise and the way in which those issues would 
be raised based on the likelihood that they would provoke a 
negative reaction. The things that provoked the negative 
reaction go off the list, and the things that can be talked 
about safely without upsetting the Chinese stay on the list.
    And our officials become conditioned over time, because the 
Chinese react to anything in a very hyperventilated way when 
they don't like what they are hearing from our officials. 
Whereas we are conditioned to sit and take everything that they 
say, no matter how offensive it is to our values, no matter how 
offensive it is to our interests. Our diplomats sit there and 
take it from the Chinese. And then when we say anything that is 
even mildly critical, they fly off the handle. And it is a 
strategic negotiating tactic that they use in the way that they 
deal with us.
    So i think part of the problem is it goes back to the way 
our diplomatic corps is organized, how they are trained, what 
they are prepared to deal with when they go into meetings with 
the Chinese. They simply are not, even when they are China 
hands, and in some cases the China hands are the worst because 
they have invested all these years in learning Chinese and in 
making relationships with people in the Chinese Government. The 
last thing they want to do is screw up their career by 
alienating their interlocutors.
    So one of the big problems is trying to get people out of 
this mind frame that the relationship is the most important 
thing about our relationship. It is not. The relationship is a 
means to an end. And our interests and our values are the same 
thing when it comes to China. These two fundamental issues lie 
at the heart of the problem with our lack of policy and our 
lack of strategic thinking about how to deal with China.
    Mr. Connolly. Thank you so much.
    If the chairman will indulge, I would just like to give the 
other two panelists an opportunity to answer the same question. 
I thank the chair.
    Ms. Richardson. I will try to be very quick and just point 
out that in 1997 the great hope was not only that rights in 
political space in Hong Kong would be protected and possibly 
expand, but also that it might have a positive influence on the 
mainland. And we are here today because we are seeing the 
opposite. And I think if the U.S. really does believe that 
democracies and rights-respecting governments make better trade 
partners, make better strategic allies, make more reliable 
partners across a host of issues, there is a lot more work to 
be done with respect to China.
    I think it is also deeply problematic. It is not just a 
question of people I think scaling back their expectations of 
diplomatic initiatives or what the Chinese Government may or 
may do, I think there is almost a complete absence from these 
discussions about what people more broadly in China want and 
supporting that and expressing some solidarity with people who 
are trying to make precisely the kind of change that I think is 
fundamental to the U.S. achieving its long-term policy goals. 
Again, it goes back to the point about seeing various activists 
in the mainland as key allies for lots of different interests 
in the U.S., not as sort of the human rights box to be checked.
    Mr. Cheng. Sir, the key and fundamental difference here is 
that China knows what it wants. It pushes for those goals, and 
it pushes them with every lever at its disposal, which given a 
centralized authority means economic, industry, official 
spokespeople, media, et cetera.
    We need to be consistent in our policy objectives and 
persistent in enunciating them. We need to apply not only the 
State Department and the Commerce Department and the levers of 
government in the executive branch and also here in the 
legislative branch, but also to encourage business, to 
encourage NGOs, to encourage media and other places to be as 
forthright in standing up for those American principles, not 
American Government principles, but American principles, as the 
Chinese are in standing up for theirs.
    I don't fault the Chinese for standing up for what they 
believe in. That is their business. I do fault us for not 
applying all of those levers in a consistent manner 
persistently.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
All time has expired. And we want to thank the panel for its 
testimony here this afternoon. We are being called to the floor 
for votes now. All members will have 5 days to supplement their 
remarks or submit questions.
    And I want to once again thank Mr. Faleomavaega for his 
service to this committee, to American Samoa, and to our 
country. We really did mean all those nice things that we said 
about him.
    And if there is no further business to come before the 
committee, we are adjourned. Thank you.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


              Material Submitted for the Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
